December 23, 2008


WALTER F. O’TORMEY
VICE PRESIDENT, ENGINEERING

SUBJECT:     Audit Report – Flats Sequencing System: Program Status
             (Report Number DA-AR-09-001)

This report presents the results of our audit of the Flats Sequencing System (FSS)
readiness for first article testing (FAT) (Project Number 08YG027DA000). Xxxx x Xxxx
xxxxxxx xxxxxxx FSS is currently the largest U.S. Postal Service mail automation
investment and is expected to generate operational savings of Xxxxxx xxxxxxx annually.
FAT is a key program step that determines whether the system design allows for full
deployment. See Appendix A for additional information about this audit.

FSS Program Status

The Postal Service postponed FAT, scheduled for November 3, 2008, because machine
performance was not meeting two key performance metrics — throughput and acceptance
rate. This decision is not expected to delay program savings. We believe delaying FAT
allows the FSS program to better balance system performance and schedule risks.

While program management is attentive to system performance and schedule risks,
declines in mail volume introduce a substantial new deployment risk to the program which
calls for management to develop a mitigation plan. See Appendix B for our detailed
comments.

We recommend the Vice President, Engineering:

1. Establish a risk mitigation plan for volume declines to include a reevaluation of sites
   scheduled to receive Flats Sequencing Systems (FSS). The reevaluation should
   include the expected number of sort plans and delivery points for each FSS scheduled
   for deployment.




      This report has not yet been reviewed for release under FOIA or the Privacy Act.
      Distribution should be limited to those within the Postal Service with a need to know.
Flats Sequencing System: Program Status                                       DA-AR-09-001

Management’s Comments

Management agreed with the finding but felt they have already conducted a detailed
review of volume change impacts on FSS equipment deployment. In addition,
management stated that current attention to volume changes is thorough and appropriate
and they do not believe that any risk mitigation plan “beyond what is currently being
analyzed is necessary.” See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) disagrees with management’s
comments because their corrective actions in response to our prior report do not include a
risk mitigation plan. Subsequent to management providing their December 5, 2008,
written response, we discussed these issues with them again and reviewed their actions to
broaden the number of zones to compensate for volume declines. As of December 17,
2008, management was analyzing flats volume data and its impacts on the FSS program,
and developing a comprehensive mitigation plan which will enable them to react to volume
declines. If there is a need to react, program management will seek senior executive
support in February 2009. As such, we find these updated management actions
responsive to the finding and recommendation.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel A. Castillo, Engineering, or
me at (703) 248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Patrick R. Donahoe
    Donald E. Crone
    Aron M. Sanchez
    Katherine S. Banks




                                             2
Flats Sequencing System: Program Status                                                             DA-AR-09-001

                               APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In December 2006, the Postal Service approved a Xxxx xxxxxxx Phase I Decision
Analysis Report (DAR) to develop, purchase, and deploy 100 FSS machines to 32 sites.
The DAR stated the FSS will process flats1 from mail streams produced by the Automated
Flat Sorting Machine (AFSM) 100 and the Upgraded Flat Sorting Machine 1000. In
addition, the FSS will process a significant portion of the flats that currently arrive at
delivery units in mailer-prepared bundles and sacks. The mail the FSS processes arrives
at the delivery unit in walk sequence order, ready for delivery by the carrier with no
additional mail movement or manual sorting required. Savings should result when delivery
units can eliminate the requirement for mail carriers to manually case flat mail. A small
reduction in clerks’ workhours at delivery units should also result, since employees would
no longer need to move FSS-processed mail to the carrier casing areas.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit is to provide a program status of the FSS system readiness for
FAT. To accomplish our objective, we monitored and reviewed performance data from the
FSS FAT system that is installed at the Dulles Processing and Distribution Center (P&DC)
and monitored the activity of the In-Plant FAT system installed at the supplier facility. We
compared our observations to the statement of work performance requirements and
discussed performance deficiencies with program management.

We conducted this performance audit from August through December 2008 in accordance
with generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management on November 4, 2008, and included their comments where
appropriate.




1
 Flats are mailpieces that exceed one of the maximum dimensions of letter-size mail, such as large envelopes,
newspapers, catalogs, circulars, and magazines.




                                                          3
  Flats Sequencing System: Program Status                                     DA-AR-09-001

  PRIOR AUDIT COVERAGE

  The OIG previously issued the following reports relating to development of the FSS.


                            Report          Final Report
   Report Title             Number              Date                    Comments
                                                            The audit determined that Postal
                                                            Service Engineering needed to
                                                            focus greater attention on risk
Flats Sequencing
                                                            management standards to ensure
System Risk              DA-AR-07-003       July 31, 2007
                                                            that the significant risks
Management
                                                            associated with deployment of
                                                            the FSS were adequately
                                                            identified and managed.
                                                            The audit determined the Postal
Flats Sequencing
                                                            Service needed to focus greater
System First Article
                         DA-AR-08-006       June 4, 2008    attention on workload, FAT
Testing Readiness
                                                            schedule, and critical
and Quality
                                                            deliverables.




                                               4
Flats Sequencing System: Program Status                                                                 DA-AR-09-001

                                 APPENDIX B: DETAILED COMMENTS

System Performance and Savings Impact

As depicted in Table 1, data from the FSS FAT system installed at the Dulles P&DC
revealed the system was not meeting contract performance criteria for throughput and
acceptance rates in the month prior to the scheduled FAT. Therefore, management
elected to postpone FAT.

         Table 1. FAT Readiness Analysis
                                                                      Average
                                                                       Results
                                                                      (October               Contract
            System Performance Criteria                                 2008)              Requirement
         Accept Rate                                                    89.1%                95.00%

         Throughput Rate                                               10,361                   16,500

         Throughput Rate Normalized                                    12,0622
         Average Volume Per Sort Plan                                  22,368                   45,375

We agree with management’s decision to balance performance and schedule given that:

    •    The average FSS acceptance rates for seven sort plans processed at the Dulles
         P&DC were 85.5 to 89.1 percent.

    •    The acceptance rate for the AFSM 100 at the Dulles P&DC was 96 percent for the
         same period.

    •    Lower than expected acceptance rates would generate additional manual handlings
         in an FSS environment.

    •    Throughput rate was below expectation. Volume reduction in the daily sort plans
         will make it difficult to achieve the throughput requirement of 16,500 mailpieces per
         hour. Volume reduction has a direct correlation to lower throughput.

Management’s decision to delay FAT will not slow program savings because they have
elected to continue, at this time, deploying the FSS machines as scheduled.




2
  Normalized throughput – for the purposes of evaluating throughput contract requirements, when volume on a live mail
run is lower than the 45,375 mailpiece baseline, throughput is “normalized” or adjusted proportionally to reflect what the
system throughput would have been had the volume been at the baseline level.




                                                             5
Flats Sequencing System: Program Status                                                              DA-AR-09-001

Volume Declines Increase Program Risks

As depicted in Table 1, throughput was below expectations. The reduction in flat volume
impacts the method for measuring the success of meeting performance criteria. In
particular, to ensure the FSS FAT system has mail volume to accurately measure the
throughput requirement of 16,500 mailpieces per hour, the FSS equipment must process
45,375 flat mailpieces per sort plan.

However, since our previous report, the Postal Service has communicated that flats
volume declined 11.3 percent for the first three quarters of fiscal year 2008. In fact, 27 of
the 32 sites scheduled to receive FSS equipment have experienced flats machinable
volume declines of 4.5 million mailpieces per month, on average, over the last 2 years.
Finally, the average daily flat mail volume per sort plan that the FSS FAT system
processed at the Dulles P&DC during October 2008 was approximately 22,368 mailpieces
(51 percent below the contract requirement of 45,375).

In July 2007, we also reported on FSS program risks3 and recommended a mitigation plan
for the identified risks. We believe the trend in flats volume poses a substantial risk to the
FSS program since declines in machinable flat volume for the sites initially selected to
receive FSS machines would impact program savings expectations.4 As such, we believe
program management has an opportunity to formalize a risk mitigation plan for volume
declines to maximize program savings.




3
  Flats Sequencing System Risk Management (Report Number DA-AR-07-003, dated July 31, 2007).
4
  FSS Decision Analysis Report sensitivity analysis defined lower bound return on investment at a throughput of 14,500
pieces per hour.




                                                           6
Flats Sequencing System: Program Status                    DA-AR-09-001

                       APPENDIX C: MANAGEMENT’S COMMENTS




                                          7
Flats Sequencing System: Program Status       DA-AR-09-001




                                          8
Flats Sequencing System: Program Status                           DA-AR-09-001



               Attachment to Management’s Response – Prior Comments




                                          9
